HHS/OIG-Audit--"Audit of Tapestry Health Systems, Inc., Financial Mangement Systems Related to the Title X Family Planning Program, (A-01-99-01504)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Tapestry Health Systems, Inc., Financial Management Systems Related to Title X Family Planning Program," (A-01-99-01504)
May 2, 2000
Complete
Text of Report is available in PDF format (1.41 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Tapestry health Systems, Inc. (Tapestry) is a nonprofit human service organization providing comprehensive medical services
throughout Western Massachusetts. Our final report points out several areas in Tapestry's financial management systems,
which were not compliant with Federal regulations and need improvements. Until improvements are implemented, Tapestry's
financial management systems do not provide adequate assurance for control over the accountability of Federal awards. We
recommended that Tapestry develop and implement systems that (1) provide for the identification of Title X expenses; (2)
ensure family planning surplus revenues are used to further the family planning program; (3) specify requests for Title
X funds to be related to minimum amounts needed to be as close as it is feasible to the actual cash requirements for the
Title X program, prior to becoming eligible for the advance system of requesting funds; and (4) ensure space costs which
benefit more than one program are allocated to each program on an equitable basis. In addition, we recommend that Tapestry
continue to monitor support for payroll charges to ensure proper allocation of the salaries of employees working in the
family planning program. Tapestry concurred with our recommendations and agreed to take corrective actions.